Department of Homeland Security
   Ofﬁce of Inspector General

             Annual Review of the United States 

             Coast Guard’s Mission Performance 

                         (FY 2009) 





OIG-10-106                                          August 2010
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 25028




                                                              Homeland
                                                              Security
                                        AUG - 3 Z010
                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homelan.d Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the annual review of the United States Coast Guard's mission
performance, as required by the Homeland Security Act of2002. It is based on interviews
with employees and officials of relevant agencies and institutions and a review of
applicable documents.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................3 


     Resource Hours for Non-Homeland Security and Homeland Security Missions..........3 


     Coast Guard’s Mission Performance .............................................................................5 


     FY 2009 Budget Projections..........................................................................................6 


     Management Comments and OIG Analysis ..................................................................6 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.........................................................7 

     Appendix B:           Management Comments to the Draft Report .........................................9 

     Appendix C:           Non-Homeland Security Missions.......................................................10 

     Appendix D:           Homeland Security Missions ...............................................................21 

     Appendix E:           Major Contributors to This Report ......................................................35 

     Appendix F:           Report Distribution ..............................................................................36 


Abbreviations
     DHS                   Department of Homeland Security 

     FY                    Fiscal Year            

     GAO                   Government Accountability Office 

     OIG                   Office of Inspector General 





                 Annual Review of the United States Coast Guard’s Mission Performance (FY 2009)
OIG

Department of Homeland Security
Office of Inspector General


Executive Summary
                    This report presents our annual review of the United States Coast
                    Guard’s mission performance, as required by the Homeland
                    Security Act of 2002. To address the Act’s requirements, we
                    reviewed the Coast Guard’s performance measures and results for
                    each non-homeland security and homeland security mission, as
                    well as resource hours used to perform the various missions from
                    Fiscal Years 2001 through 2009. We did not verify the accuracy
                    of Coast Guard–provided data.

                    According to the Coast Guard, the data show that in Fiscal Year
                    2009, for the eighth consecutive year, the Coast Guard dedicated
                    more resource hours to homeland security missions than to non-
                    homeland security missions. The data also show that the gap
                    between homeland security and non-homeland security resource
                    hours increased to 12% in FY 2009 from 10% in FY 2008. Coast
                    Guard performance measurement information indicates that it met
                    more non-homeland security mission performance measures than
                    homeland security mission performance measures. Coast Guard–
                    provided budget projections for Fiscal Year 2010 show a decrease
                    in homeland security mission spending and a slight increase in
                    non-homeland security mission spending from Fiscal Year 2009,
                    and a narrowing of the gap between the two categories.

                    This report contains no recommendations.




        Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                            Page 1 

Background
                  Coast Guard Missions. Section 888 of the Homeland Security
                  Act of 2002, Public Law 107-296, dated November 25, 2002,
                  directs the Inspector General to conduct an annual review that
                  assesses the performance of all the Coast Guard missions, with a
                  particular emphasis on non-homeland security missions. This
                  Section also defines the Coast Guard’s 11 statutory missions as
                  either non-homeland security missions or homeland security
                  missions, as follows:

                  Non-Homeland Security Missions

                       •   Marine Safety
                       •   Search and Rescue
                       •   Aids-to-Navigation
                       •   Living Marine Resources
                       •   Marine Environmental Protection
                       •   Ice Operations

                  Homeland Security Missions

                       •   Ports, Waterways, and Coastal Security
                       •   Drug Interdiction
                       •   Migrant Interdiction
                       •   Defense Readiness
                       •   Other Law Enforcement

                  In addition, Section 888 of the Homeland Security Act of 2002
                  prohibits the Secretary from substantially or significantly reducing
                  any of the Coast Guard’s missions or its capability to perform
                  those missions, subsequent to the transfer of the Coast Guard to the
                  Department of Homeland Security (DHS).

                  Resource Hours. The Coast Guard uses resource hours—
                  generally, the number of flight hours (for aircraft) and underway
                  hours (for boats and cutters) used to carry out a specific mission—
                  to determine the amount of time expended on each of its
                  non-homeland security and homeland security missions. During
                  our review, we obtained data on the total number of resource hours
                  reported by the Coast Guard from a baseline of pre-September 11,
                  2001 data, through Fiscal Year (FY) 2009. The Coast Guard–
                  calculated baseline is an annual average of resource hours based on
                  eight FY quarters preceding September 11, 2001. We did not


      Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                          Page 2 

                                       verify the resource hour data reported by the Coast Guard, nor did
                                       we validate whether the Coast Guard accurately classified resource
                                       hours used for each mission. We assessed total resource hours for
                                       the 11 individual missions in order to identify the changes in each.

Results of Review
                              Although we did not verify the accuracy of Coast Guard data, the data
                              show that in FY 2009, for the eighth consecutive year, the Coast Guard
                              dedicated more resource hours to homeland security missions than to non-
                              homeland security missions. The data also show that the gap between
                              homeland security and non-homeland security resource hours increased to
                              12% in FY 2009 from 10% in FY 2008. Coast Guard performance
                              measurement information indicates that it met more non-homeland
                              security mission performance measures than homeland security measures.
                              Coast Guard-provided budget projections for FY 2010 show a decrease in
                              homeland security mission spending and a slight increase in non-
                              homeland security mission spending from FY 2009, and a narrowing of
                              the gap between the two categories.

                    Resource Hours for Non-Homeland Security and Homeland
                    Security Missions
                              Prior to FY 2001, the majority of resource hours were dedicated to non-
                              homeland security missions. However, since FY 2002, the majority of
                              resource hours have been dedicated to homeland security missions, as
                              illustrated in the following chart.


                                               Resource Hours - All Missions
                                        Non-Homeland Security Missions         Homeland Security Missions
                  900000
                  800000
 Resource Hours




                  700000                                                                        57%
                                                                             57%       55%               55%    56%
                  600000                                             63%
                                                          62%
                  500000                         58%
                  400000      38%       41%
                  300000
                  200000                                              37%    43%       45%      43%      45%    44%
                                                          38%
                              62%       59%      42%
                  100000
                       0
                            Baseline   2001     2002      2003       2004    2005     2006     2007      2008   2009

                                                                     Fiscal Year




                           Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                 Page 3 

                    The Coast Guard data also show that the gap between resource hours for
                    homeland security versus non-homeland security missions is narrowing
                    from a 26% difference in FY 2004 (63% of resource hours used for
                    homeland security missions versus 37% for non-homeland security
                    missions) to 12% for FY 2009. Total Coast Guard–reported resource
                    hours, composed of the number of flight hours (for aircraft) and underway
                    hours (for boats and cutters) used on a specific mission, dropped for the
                    third straight year to 717,992 in FY 2009, declining 3.3% compared to
                    742,386 in FY 2008. Of that FY 2009 total, non-homeland security
                    resource hours decreased to 317,250, decreasing 5.3% compared to
                    334,901 in FY 2008. In FY 2009, homeland security resource hours
                    declined to their lowest level since FY 2002 at 400,742, decreasing 1.7%
                    compared to 407,485 in FY 2008.

                    The following table shows that the largest percentage of all Coast Guard
                    resource hours was utilized for the Ports, Waterways, and Coastal Security
                    mission, accounting for 25.25% of total resource hours for FY 2009.

                                        % of                    % of                % of                % of
                                        Total                   Total               Total               Total
                              FY 06    Mission    FY 07        Mission   FY 08     Mission   FY 09     Mission
                   Mission    Hours    Hours      Hours        Hours     Hours     Hours     Hours     Hours
Non-Homeland Security
Search and Rescue             59,914     7.74%     59,999       7.78%     61,321    8.27%     58,607    8.16%
Marine Safety                 68,277     8.82%     49,379       6.41%     45,794    6.16%     52,579    7.32%
Aids-to-Navigation           105,566    13.64%    102,088      13.25%    106,638   14.37%    100,904   14.05%
Ice Operations                 6,877     0.89%     10,230       1.33%     11,938    1.61%      8,033    1.12%
Marine Environmental
Protection                     4,509     0.58%      2,628       0.34%      3,441    0.46%      2,949    0.41%
Living Marine Resources       99,850    12.90%    104,293      13.53%    105,769   14.24%     94,178   13.12%
Subtotal                     344,993    44.57%    328,617      42.64%    334,901   45.11%    317,250   44.18%
Homeland Security
Illegal Drug Interdiction     94,116    12.16%     75,175       9.75%     75,892   10.23%     80,564   11.22%
Undocumented Migrant
Interdiction                  67,936     8.78%     98,899      12.83%     74,918   10.09%     76,100   10.60%
Other Law Enforcement          5,112     0.66%      9,213       1.20%      8,272    1.11%      6,686    0.93%
Ports, Waterways, and
Coastal Security             216,595    27.98%    219,662       28.50%   205,715    27.71%   181,264    25.25%
Defense Readiness             45,360     5.85%     39,150        5.08%    42,688     5.75%    56,128     7.82%
Subtotal                     429,119    55.43%    442,099       57.36%   407,485    54.89%   400,742    55.81%
Total                        774,112   100.00%    770,716      100.00%   742,386   100.00%   717,992   100.00%




                Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                    Page 4 

                                              The percentages of total resource hours by statutory mission areas are
                                              illustrated in the following chart.




                      Non-Homeland Security
                                                             Search and Rescue                                                            FY09
                                                                   Marine Safety                                                          FY08
                                                              Aids-to-Navigation                                                          FY07
Statutory Missions




                                                                  Ice Operations                                                          FY06
                                                Marine Environmental Protection
                                                        Living Marine Resources
                                                          Illegal Drug Interdiction
                      Homeland Security




                                               Undocumented Migrant Interdiction
                                                         Other Law Enforcement
                                              Ports, Waterways, Coastal Security
                                                            Defense Readiness         0%



                                                                                               5%



                                                                                                         10%



                                                                                                                  15%



                                                                                                                           20%



                                                                                                                                    25%



                                                                                                                                               30%
                                                                                           Percentage of Total Resource Hours by Fiscal Year



                                              Non-homeland security missions are summarized in appendix C and
                                              homeland security missions are summarized in appendix D.

Coast Guard’s Mission Performance
                                              The Coast Guard reported that it met 14 of its 24 performance measures in
                                              FY 2009, including meeting 8 of 11 non-homeland security performance
                                              measures and 6 of the 13 homeland security performance measures. In FY
                                              2009, Coast Guard retired one homeland security performance measure
                                              and one non-homeland security performance measure. It also added one
                                              new performance measure for its Drug Interdiction mission, resulting in a
                                              total of 24 performance measures for FY 2009. The following table
                                              summarizes the Coast Guard’s success in meeting its performance
                                              measures.




                     Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                                 Page 5 

                                  Mission                          Number of Performance   Number of Performance
                                                                    Measures in FY 2009    Measures Met in FY 2009
                Non Homeland Security
                Search and Rescue                                           1                      1 of 1
                Aids-to-Navigation                                           2                      1 of 2
                Ice Operations                                              1                      1 of 1
                Living Marine Resources                                     1                      0 of 1
                Marine Safety                                                3                      3 of 3
                Marine Environmental Protection                              3                      2 of 3
                Total Non-Homeland Security                                 11                     8 of 11
                Homeland Security
                Ports, Waterways and Coastal Security                        7                      4 of 7
                Drug Interdiction                                            1                      0 of 1
                Migrant Interdiction                                         1                      1 of 1
                Defense Readiness                                           3                      0 of 3
                Other Law Enforcement                                       1                      1 0f 1
                Total Homeland Security                                     13                     6 of 13
                TOTALS                                                      24                    14 of 24


                   The performance measures and results for non-homeland security missions
                   and homeland security missions are included in appendices C and D,
                   respectively.

          FY 2010 Budget Projections

                   According to the Coast Guard’s FY 2010 budget projections presented in
                   the Annual Performance Report,1 during FY 2010 the Coast Guard expects
                   to close the gap between non-homeland security missions and homeland
                   security missions by expending 48.2% of its budget on non-homeland
                   security missions and 51.8% on homeland security missions. The largest
                   percentage of Coast Guard resources will continue to be dedicated to its
                   Ports, Waterways, and Coastal Security mission in FY 2010.

                   Management Comments and OIG Analysis
                            The Coast Guard had no comments to the OIG’s analysis of the
                            United States Coast Guard’s Mission Performance for Fiscal Year
                            2009 report.

                            We included the formal reply from the Chief, Office of Budget and
                            Programs for the Coast Guard in Appendix B.




1
    Department of Homeland Security Annual Performance Report, Fiscal Years 2009–2011.


               Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                        Page 6 

Appendix A
Purpose, Scope, and Methodology

                      Section 888 (f) (1) of the Homeland Security Act of 2002 directs
                      the Inspector General to conduct an annual assessment of the Coast
                      Guard’s performance of all its missions, with a particular emphasis
                      on non-homeland security missions. The objective of this review
                      was to determine the extent to which the Coast Guard is
                      maintaining its historical level of effort on non-homeland security
                      missions.

                      We reviewed the following Government Accountability Office
                      (GAO) reports and testimonies:

                           •	 Coast Guard Observations on the Requested Fiscal Year
                              2011 Budget, Past Performance, and Current Challenges,
                              GAO-10-411T, February 25, 2010;
                           •	 Coast Guard Observations on the Fiscal Year 2010 Budget
                              and Related Performance and Management Challenges,
                              GAO-09-810T, July 7, 2009;
                           •	 Coast Guard Observations on the Fiscal Year 2009 Budget,
                              Recent Performance, and Related Challenges,
                              GAO-08-494T, March 6, 2008;
                           •	 Coast Guard Deepwater Program Management Initiatives
                              and Key Homeland Security Missions, GAO-08-531T,
                              March 5, 2008;
                           •	 Coast Guard Preliminary Observations on Deepwater
                              Program Assets and Management Challenges,
                              GAO-07-446T, February 15, 2007; and
                           •	 Coast Guard Efforts to Improve Management and Address
                              Operational Challenges in the Deepwater Program,
                              GAO-07-460T, February 14, 2007.

                      We analyzed the total number of resource hours reported by the
                      Coast Guard prior to September 11, 2001, through FY 2009. We
                      did not attempt to verify the resource hour data, nor did we attempt
                      to validate whether the Coast Guard had accurately categorized
                      such data. We assessed total resource hours for the 11 individual
                      Coast Guard missions to identify the changes in each.

                      We analyzed performance measures and targets to determine
                      whether the measures for each of the Coast Guard’s missions had
                      been accomplished. We obtained information on performance
                      from the Department of Homeland Security Annual Performance
                      Report, Fiscal Years 2009–2011. In addition, we reviewed our
                      Annual Review of the United States Coast Guard’s Mission



          Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                              Page 7 

Appendix A
Purpose, Scope, and Methodology

                      Performance (FY 2008), dated October 2009, for performance
                      measure data prior to FY 2009.

                      We conducted our review between January 2010 and May 2010
                      under the authority of the Inspector General Act of 1978, as
                      amended, and according to the Quality Standards for Inspections,
                      issued by the Council of the Inspectors General on Integrity and
                      Efficiency. We relied on data provided by the Coast Guard and
                      did not verify that data against original documentation.

                      We would like to extend our appreciation for the cooperation and
                      courtesies extended by the Coast Guard to our staff during the
                      review.




          Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                              Page 8 

                                  FOR OFFICIAL USE ONLY
Appendix B
Management Comments to the Draft Report




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                             Page 9 

Appendix C
Non-Homeland Security Missions

                                         Non-Homeland Security Missions

                                         The Performance Measures and Results for Appendix C were
                                         taken from the FY 2009 Annual Performance Report, provided by
                                         the Department of Homeland Security.2

                                         Resource Hours. The FY 2009 total non-homeland security
                                         resource hours were down 5.3% from FY 2008 reaching 317,250
                                         for non-homeland security missions, as illustrated in the following
                                         graph.

                                                              Non-Homeland Security Resource Hours

                                       400,000

                      Resource Hours




                                       350,000

                                       300,000

                                       250,000

                                       200,000

                                       150,000

                                       100,000

                                        50,000

                                             0

                                                  Baseline


                                                             2001


                                                                    2002


                                                                           2003


                                                                                  2004


                                                                                          2005


                                                                                                 2006


                                                                                                        2007


                                                                                                               2008


                                                                                                                      2009
                                                                                  Fiscal Year



                                         Performance Measures and Results. For FY 2009, the Coast
                                         Guard met 8 of 11 performance measures for its 6 non-homeland
                                         security missions, compared with meeting 7 of 12 non-homeland
                                         security performance measures in FY 2008.

                                         The performance measures and results for each non-homeland
                                         security mission are summarized below.

                                         Search and Rescue

                                         Minimizing the loss of life, personal injury, and property damage
                                         or loss by rendering aid to persons in distress and property in the
                                         maritime environment has always been a Coast Guard priority.

                                         Resource Hours. Search and Rescue is a demand-driven mission.
                                         Requirements for search and rescue services increase or decrease
                                         relative to the number of people at sea and their need for Coast
                                         Guard assistance. Resource hours for the Search and Rescue

2
    Department of Homeland Security Annual Performance Report, Fiscal Years 2009–2011.


               Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                    Page 10

Appendix C
Non-Homeland Security Missions

                     mission increased by 14.8% in FY 2005 because of the Coast
                     Guard’s response to Hurricane Katrina. Resource hours in
                     FY 2009 decreased approximately 4% over FY 2008. The
                     following graph shows the number of resource hours used by the
                     Coast Guard for the Search and Rescue mission from the baseline
                     period through FY 2009.


                                                         Search and Rescue Resource Hours

                                          100,000
                         Resource Hours

                                           80,000
                                           60,000
                                           40,000
                                           20,000
                                               0
                                                    Baseline


                                                               2001


                                                                      2002


                                                                             2003


                                                                                     2004


                                                                                            2005


                                                                                                   2006


                                                                                                          2007


                                                                                                                  2008


                                                                                                                           2009
                                                                                    Fiscal Year



                     Performance Measures and Results. The one performance
                     measure related to Search and Rescue was met in FY 2009. This
                     measure was used for the first time in FY 2009; however, the
                     Coast Guard also provided data for FY 2008.

                                                  Search and Rescue
                        Performance Measure – Percentage of people in imminent danger saved in the
                                                 maritime environment
                                FY   FY      FY      FY      FY      FY     FY      FY        FY
                               2001 2002 2003 2004 2005 2006 2007                  2008      2009

                       Target                                                                             76.0%          76.0%



                      Actual                                                                              76.8%          77.3%


                                                                                                             √            √
                       Result
                                                                                                            Met          Met


                     Aids-to-Navigation

                     The Aids-to-Navigation mission is a means for the Coast Guard to
                     mark the waters of the United States and its territories to assist
                     boaters in navigation and alert them to obstructions and hazards.



         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009)

                                                               Page 11
Appendix C
Non-Homeland Security Missions

                     Resource Hours. The chart below shows FY 2009 resource hours
                     decreased by 5.4% from FY 2008, constituting an approximate
                     10% decrease from the baseline level.


                                                        Aids-To-Navigation Resource Hours

                                          140,000
                                          120,000

                         Resource Hours
                                          100,000
                                           80,000
                                           60,000
                                           40,000
                                           20,000
                                               0
                                                    Baseline

                                                               2001

                                                                      2002

                                                                                2003

                                                                                         2004

                                                                                                 2005

                                                                                                        2006

                                                                                                               2007

                                                                                                                        2008

                                                                                                                               2009
                                                                                        Fiscal Year



                     Performance Measures and Results. There were two
                     performance measures related to Aids-to-Navigation in FY 2009.
                     One measure was met and one was not met.

                                                                      Aids-to-Navigation
                            Performance Measure – Federal short-range aids-to-navigation availability
                                  FY    FY     FY      FY      FY      FY      FY       FY          FY
                                 2001 2002 2003 2004 2005 2006 2007                    2008        2009

                      Target                N/A     N/A         N/A       N/A          N/A      N/A     N/A      97.5%         97.5%



                      Actual                N/A     N/A         N/A       N/A          N/A      N/A     N/A      98.3%         98.0%


                                                                                                                   √            √
                      Result                                                                                      Met          Met



                     According to the Coast Guard, the availability of federal short-
                     range aids-to-navigation declined slightly to 98%. This is
                     nominally better than the FY 2010 and FY 2011 targets, which will
                     be 97.5% for both years.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                               Page 12

Appendix C
Non-Homeland Security Missions

                                                         Aids-to-Navigation
                               Performance Measure – Five-year average number of collisions, allisions, and
                                                             groundings
                                       FY     FY      FY      FY      FY     FY       FY       FY        FY
                                      2001   2002    2003    2004    2005   2006     2007     2008      2009

                                                                         ≤       ≤       ≤       ≤       ≤
                              Target   2,261   2,098   2,010   1,923
                                                                       1,831   1,748   1,664   1,756   1,871


                              Actual   2,215   2,098   2,000   1,876   1,877   1,816   1,823   1,857   1,878

                                                                        X       X       X        X      X
                                        √       √       √       √
                                                                       Not     Not     Not      Not    Not
                              Result   Met     Met     Met     Met
                                                                       Met     Met     Met      Met    Met

                            Note: The symbol ≤ is used to indicate less than or equal to.

                          According to the Coast Guard, the deviation from the target for the
                          five year average number of collisions, allisions, and groundings
                          was minor, and there was no effect on overall program
                          performance. The Coast Guard’s Waterways Management
                          program oversees this performance measure and has undertaken
                          initiatives to reduce the risk of collisions, allisions, and
                          groundings. These efforts include improvements in bridge
                          clearances to prevent disruptions to marine and surface
                          transportation; navigation safety risk assessments to identify
                          factors that influence collisions, allisions, and groundings; and
                          contingency planning for marine transportation during extreme
                          conditions.

                          Ice Operations

                          This mission encompasses icebreaking activities in the Great
                          Lakes, St. Lawrence Seaway, and Northeast.3 These activities
                          facilitate the movement of bulk cargoes carried by regional
                          commercial fleets during the winter months.

                          Resource Hours. Fluctuations in resource hours are not unusual,
                          since this mission is dependent on ice accumulation, which varies
                          on an annual basis. In FY 2009, resource hours decreased by
                          approximately 32.7% from FY 2008, which is the same as the
                          overall decrease from the baseline level.

3
  In addition to domestic ice operations, the Coast Guard operates the only U.S.-controlled icebreakers
capable of operations in the polar regions. The Coast Guard operates these cutters and is reimbursed for
their operation and maintenance by the National Science Foundation. Resource hours for polar operations
are included in the chart; however, only Coast Guard–directed domestic ice operations performance targets
are measured.


             Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                 Page 13

Appendix C
Non-Homeland Security Missions


                                                             Ice Operations Resource Hours

                                        20,000
                                        18,000
                                        16,000




                       Resource Hours
                                        14,000
                                        12,000
                                        10,000
                                         8,000
                                         6,000
                                         4,000
                                         2,000
                                             0
                                                  Baseline

                                                                 2001


                                                                              2002

                                                                                          2003


                                                                                                   2004


                                                                                                          2005


                                                                                                                   2006

                                                                                                                              2007


                                                                                                                                           2008


                                                                                                                                                    2009
                                                                                                  Fiscal Year



                     Performance Measures and Results. There was one
                     performance measure related to Ice Operations in FY 2009, and it
                     was met.

                                                                                     Ice Operations
                       Performance Measure – Number of days critical waterways are closed due to ice
                                            FY         FY            FY               FY           FY       FY        FY               FY           FY
                                           2001       2002          2003             2004         2005     2006      2007             2008         2009
                                                                                                 2 avg.   2 avg.    2 avg.           2 avg.       2 avg.
                      Target                 8               2           8            2          and 8    and 8     and 8            and 8        and 8
                                                                                                 severe   severe    severe           severe       severe

                      Actual                 7               7           7            4            0        0             0            0            0

                                                         X                            X
                                             √                           √                         √        √         √                √            √
                                                        Not                          Not
                      Result                Met                         Met                       Met      Met       Met              Met          Met
                                                        Met                          Met



                     Living Marine Resources

                     This program’s mission is to provide effective and professional at-
                     sea enforcement of federal fisheries regulations and other
                     regulations to advance national goals for the conservation and
                     management of living marine resources and their environments.

                     Resource Hours. FY 2009 resource hours decreased 11% from
                     FY 2008, but were higher than the baseline by 3.2%.



         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                  Page 14

Appendix C
Non-Homeland Security Missions

                                                                        Living Marine Resource Hours

                                          120,000

                                          100,000




                         Resource Hours
                                           80,000

                                           60,000

                                           40,000

                                           20,000

                                               0




                                                     Baseline


                                                                      2001


                                                                               2002


                                                                                       2003


                                                                                               2004


                                                                                                       2005


                                                                                                                 2006


                                                                                                                          2007


                                                                                                                                 2008


                                                                                                                                         2009
                                                                                              Fiscal Year



                     Performance Measures and Results. There was one
                     performance measure related to Living Marine Resources in
                     FY 2009, and it was not met.
                                                      Living Marine Resources
                         Performance Measure – Percentage of Coast Guard boardings at sea in which no
                           significant violations are detected when domestic fisheries regulations apply
                                 FY       FY        FY       FY      FY      FY        FY       FY       FY
                                2001     2002      2003     2004    2005    2006      2007     2008     2009

                      Target                  97%               97%          97%      97%        97%          97%       97%      97%        97%


                      Actual                 98.6%          97.3%            97.1%    96.3%    96.4%          96.6%     96.2%    95.3%    96.7%

                                                                                       X          X            X         X        X          X
                                               √                 √            √       Not        Not          Not       Not      Not        Not
                      Result
                                              Met               Met          Met      Met        Met          Met       Met      Met        Met


                     According to the Coast Guard, there are several possible reasons
                     for the large reduction in significant violations detected, including
                     economic disincentives to fish, the significance of penalties, and
                     the perception of increased enforcement. The reduction in
                     boarding efforts is, in part, the result of changed procedures that
                     more accurately capture the Coast Guard’s efforts to enforce living
                     marine resource laws and regulations. While there is a deterrent
                     relationship between Coast Guard presence and violations, other
                     factors influence compliance, such as natural disasters, changing
                     biomass distribution, market prices, fuel prices, regulatory
                     complexity, and the perceived effectiveness of enforcement and
                     prosecution. According to the Coast Guard, the deviation from the



         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                      Page 15

Appendix C
Non-Homeland Security Missions

                     target was minor and there was no effect on overall program
                     performance.

                     Marine Safety

                     The Marine Safety program ensures the safe operation and
                     navigation of United States and foreign-flagged vessels. The Coast
                     Guard is responsible for providing safe, efficient, and
                     environmentally sound waterways for commercial and recreational
                     users. Domestic vessel inspections and port state control (foreign
                     vessel) examinations are conducted in order to safeguard maritime
                     commerce and international trade.

                     Resource Hours. The Coast Guard did not report hours for this
                     mission prior to 2005. Resource hours for Marine Safety increased
                     by approximately 14.8% from FY 2008 to FY 2009.


                                                            Marine Safety Resource Hours

                                        80,000
                                        70,000
                       Resource Hours




                                        60,000
                                        50,000
                                        40,000
                                        30,000
                                        20,000
                                        10,000
                                             0
                                                 Baseline

                                                             2001

                                                                    2002

                                                                           2003

                                                                                   2004

                                                                                          2005

                                                                                                 2006

                                                                                                        2007

                                                                                                               2008

                                                                                                                      2009
                                                                                  Fiscal Year



                     Performance Measures and Results. There were three
                     performance measures related to Marine Safety in FY 2008, and all
                     measures were met.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                               Page 16

Appendix C
Non-Homeland Security Missions

                                                         Marine Safety
                      Performance Measure – Five-year average number of commercial mariner deaths
                                                      and injuries
                                FY     FY      FY       FY     FY     FY     FY      FY       FY
                               2001   2002    2003     2004   2005   2006   2007    2008     2009

                      Target    N/A     N/A      N/A      N/A     N/A    N/A   N/A     <501        <529



                      Actual    N/A     N/A      N/A      N/A     N/A    N/A   N/A      494        475


                                                                                         √          √
                      Result                                                            Met        Met



                     According to the Coast Guard, the five-year average number of
                     commercial mariner deaths and injuries declined by about 4% from
                     the revised average of 494 in FY 2008. The number of deaths and
                     injuries reported in FY 2009 was about 22% fewer than average.
                     This performance is better than FY 2010 and FY 2011 targets of
                     fewer than or equal to 520 and fewer than or equal to 482 deaths
                     and injuries, respectively.

                                                      Marine Safety
                      Performance Measure – Five-year average number of commercial passenger deaths
                                                       and injuries
                                FY     FY       FY      FY      FY     FY     FY        FY      FY
                               2001   2002     2003    2004    2005   2006   2007      2008    2009

                      Target     N/A     N/A      N/A      N/A     N/A   N/A     N/A        <225    <251


                      Actual     N/A     N/A      N/A      N/A     N/A   N/A     N/A        250      228

                                                                                             X
                                                                                            Not       √
                      Result                                                                Met      Met



                     The five-year average number of passenger deaths and injuries
                     declined nearly 9% from the revised average of 250 in FY 2008,
                     and the number of deaths and injuries reported in FY 2009 was
                     about 36% fewer than average. This performance is better than the
                     FY 2010 target of fewer than or equal to 248 deaths and injuries.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                              Page 17

Appendix C
Non-Homeland Security Missions


                                                       Marine Safety
                                    Performance Measure – Five-year average number of
                                          recreational boating deaths and injuries
                                  FY     FY     FY      FY      FY     FY      FY   FY         FY
                                 2001 2002 2003 2004 2005 2006 2007                2008       2009

                        Target   N/A     N/A    N/A     N/A    N/A    N/A     N/A    <4,252   <4,248


                        Actual   N/A     N/A    N/A     N/A    N/A    N/A     N/A    4,147    4,038

                                                                                       √        √
                        Result                                                        Met      Met



                     The five-year average number of recreational boating deaths and
                     injuries declined by nearly 3% from the revised average of 4,147 in
                     FY 2008, and the number of deaths and injuries reported in
                     FY 2009 was about 13% fewer than average. This performance is
                     better the than FY 2010 target of fewer than or equal to 4,185
                     deaths and injuries.

                     Marine Environmental Protection

                     The Marine Environmental Protection program falls under the
                     Coast Guard’s stewardship role and is concerned with averting the
                     introduction of invasive species, stopping unauthorized ocean
                     dumping, and preventing the discharge of oil or hazardous
                     substances into the navigable waters of the United States.

                     Resource Hours. The Coast Guard did not report resource hours
                     for this mission prior to FY 2005. Resource hours declined by
                     14.3% from FY 2008 to FY 2009.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                            Page 18

Appendix C
Non-Homeland Security Missions

                                             Marine Environmental Protection Resource Hours

                                          6,000




                         Resource Hours
                                          5,000
                                          4,000
                                          3,000
                                          2,000
                                          1,000
                                              0




                                                  Baseline

                                                              2001

                                                                     2002

                                                                               2003

                                                                                       2004

                                                                                              2005

                                                                                                     2006

                                                                                                            2007

                                                                                                                      2008

                                                                                                                                2009
                                                                                      Fiscal Year



                     Performance Measures and Results. There were three
                     performance measures related to Marine Environmental Protection
                     in FY 2009. Two measures were met and one was not met.

                                                             Marine Environmental Protection
                    Performance Measure – Five-year average number of chemical discharge incidents
                                          per 100 million short tons shipped
                             FY      FY      FY      FY       FY       FY     FY     FY       FY
                            2001    2002    2003    2004     2005     2006   2007   2008     2009

                    Target                 N/A    N/A          N/A       N/A          N/A     N/A    N/A      <26.6          <25.9


                    Actual                 N/A    N/A          N/A       N/A          N/A     N/A    N/A       19.8          17.8

                                                                                                                √             √
                    Result                                                                                     Met           Met
                                                                                                       X


                     According to the Coast Guard, the 5-year average number of
                     chemical spills per 100 million short tons shipped declined by
                     about 10% from the revised average of 19.8 in FY 2008, and the
                     number of chemical spills reported in FY 2009 was 33% fewer
                     than average. This performance is better than FY 2010 and
                     FY 2011 targets of fewer than or equal to 22.8 and fewer than or
                     equal to 22 chemical spills, respectively.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                              Page 19

Appendix C
Non-Homeland Security Missions
                                          Marine Environmental Protection
                       Performance Measure – Five-year average number of oil spills per 100 million
                                                  short tons shipped
                               FY     FY      FY      FY       FY    FY       FY        FY      FY
                              2001 2002 2003 2004 2005 2006 2007                       2008    2009

                      Target   N/A     N/A     N/A      N/A     N/A     N/A     N/A     <13.5   <13.5


                      Actual   N/A     N/A     N/A      N/A     N/A     N/A     N/A      12.7    11.8

                                                                                          √       √
                      Result                                                             Met     Met
                                                                                 X


                     The 5-year average number of oil spills per 100 million short tons
                     shipped declined by about 4% from the revised average of 13.2 in
                     FY 2008, the number of oil spills reported in FY 2009 was 31%
                     fewer than average. This better-than-expected performance is
                     2.5% less than next year’s target of fewer than or equal to 12.1 oil
                     spills; which having been built from a reliable baseline, is still
                     considered an appropriate expectation for FY 2010.

                                         Marine Environmental Protection
                       Performance Measure – Percentage of oil removed or otherwise mitigated as
                     compared to the amount of oil released for reported spills of 100 gallons or more
                               FY     FY      FY        FY      FY      FY        FY       FY      FY
                              2001 2002      2003 2004 2005 2006 2007 2008                        2009

                      Target   N/A     N/A     N/A      N/A     N/A     N/A     N/A      15%     16%


                                                                                        No       No
                      Actual   N/A     N/A     N/A      N/A     N/A     N/A     N/A
                                                                                        Data     Data

                                                                                          X       X
                                                                                         Not     Not
                      Result                                                             Met     Met
                                                                                  X


                     According to the DHS FY 2009 Annual Performance Plan, not all
                     oil spills are “disasters,” as defined by the Secretary's priorities for
                     the homeland security enterprise. The Coast Guard has determined
                     that this measure is unsupportable. According to the Coast Guard,
                     this measure has too much variability in evaluating clean-up
                     effectiveness for minor spills and does not have an effective
                     mechanism for recording the result of oil spill clean-ups. The
                     Coast Guard is developing a new Marine Environmental Response
                     measure for implementation in the FY 2011 Annual Performance
                     Plan.


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                             Page 20

Appendix D
Homeland Security Missions

                           Homeland Security Missions

                           The Performance Measures and Results for Appendix D were
                           taken from the FY 2009 Annual Performance Report provided by
                           the Coast Guard.4

                           Total resource hours for homeland security missions peaked in
                           FY 2004, and resource hours decreased 1.7% from FY 2008 to
                           FY 2009. However, the FY 2009 level remains 115% above
                           baseline levels, as depicted in the chart below.


                                                          Homeland Security Resource Hours

                                                500,000
                               Resource Hours




                                                400,000
                                                300,000

                                                200,000
                                                100,000
                                                     0
                                                                      2001


                                                                             2002


                                                                                    2003


                                                                                            2004


                                                                                                   2005


                                                                                                          2006


                                                                                                                 2007


                                                                                                                        2008


                                                                                                                               2009
                                                          Baseline




                                                                                           Fiscal Year



                           Performance Measures and Results. For FY 2009, the Coast
                           Guard met 6 of 13 performance measures for its 5 homeland
                           security missions, as compared with meeting 5 of 13 homeland
                           security performance measures for FY 2008.

                           The performance measures and results for homeland security
                           mission are summarized below.

                           Ports, Waterways, and Coastal Security

                           The Ports, Waterways, and Coastal Security mission is to prevent
                           and protect against maritime security threats, reduce America’s
                           vulnerability to those threats, and minimize the adverse
                           consequences of maritime security incidents that occur.




4
    Department of Homeland Security Annual Performance Report, Fiscal Years 2009–2011.


               Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                     Page 21

Appendix D
Homeland Security Missions

                     Resource Hours. Resource hours for Ports, Waterways, and
                     Coastal Security rapidly increased in response to the events of
                     September 11, 2001. Of all Coast Guard missions, this mission
                     uses the largest percentage (25%) of resource hours. Resource
                     hours for this mission have decreased by 31.7 % since FY 2004.

                                                                    PWCS Resource Hours

                                          300,000
                         Resource Hours   250,000
                                          200,000
                                          150,000
                                          100,000
                                           50,000
                                                0    Baseline

                                                                  2001

                                                                           2002

                                                                                    2003

                                                                                            2004

                                                                                                   2005

                                                                                                          2006

                                                                                                                     2007

                                                                                                                              2008

                                                                                                                                      2009
                                                                                           Fiscal Year



                     Performance Measures and Results. There are seven
                     performance measures related to Ports, Waterways, and Coastal
                     Security. Of the seven measures, four were met and three were not
                     met in FY 2009.

                                                           Ports, Waterways, and Coastal Security
                                           Performance Measure – Critical infrastructure required visit rate
                                              FY     FY     FY      FY        FY      FY      FY       FY                             FY
                                             2001   2002   2003    2004      2005    2006    2007     2008                           2009

                       Target                N/A     N/A            N/A           N/A      N/A     N/A       N/A            100%     100%


                       Actual                N/A     N/A            N/A           N/A      N/A     N/A       N/A            69%      74%


                                                                                                                             X        X
                       Result                                                                                               Not      Not
                                                                                                                            Met      Met
                                                                                                                 X


                     According to the Coast Guard, the 100% target reflects the optimal
                     level of Coast Guard performance to reduce risk with existing
                     resources. The Coast Guard utilizes risk-informed decision
                     making to prioritize a suite of Ports, Waterways and Coastal
                     Security activities on a daily basis. This is a contributing factor to
                     the performance results, as certain activities were given higher

         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                Page 22

Appendix D
Homeland Security Missions

                     priority over critical infrastructure visits during FY 2009 based on
                     risk assessments and other operational demands placed on Coast
                     Guard multi-mission assets. This performance measure will be
                     retired in FY 2010.

                                             Ports, Waterways, and Coastal Security
                          Performance Measure – Percentage of risk reduction of maritime security risk
                           resulting from Coast Guard efforts to prevent a weapon of mass destruction
                                        from entering the United States via maritime means
                                    FY      FY       FY     FY       FY       FY     FY     FY      FY
                                   2001    2002     2003   2004     2005     2006   2007   2008    2009

                         Target    N/A    N/A     N/A     N/A     N/A     N/A     N/A       4%     3%



                         Actual    N/A    N/A     N/A     N/A     N/A     N/A     N/A       12%   17%


                                                                                             √     √
                         Result                                                             Met   Met
                                                                                   X


                     According to the Coast Guard, the data that comprises this measure
                     comes from an annual quantitative self-assessment of the Coast
                     Guard activities, such as maritime domain awareness, security
                     regimes, and response activities that reduce the risk associated with
                     a weapon of mass destruction entering the United States via the
                     maritime domain. This performance measure gauges the Coast
                     Guard’s estimated reduction in risk from an analytically
                     determined baseline level of risk. The FY 2009 results for the
                     percentage of risk reduction of a weapon of mass destruction
                     entering the United States via maritime means were better than in
                     FY 2008. According to the Coast Guard, this improved
                     performance is attributable to expanded maritime domain
                     awareness capacity in the Automatic Information System, Long
                     Range Identification and Tracking Systems, and Rescue 21. This
                     performance is better than FY 2010 and FY 2011 risk reduction
                     targets of 12% and 11.8% risk reduction, respectively.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                            Page 23

Appendix D
Homeland Security Missions

                                           Ports, Waterways, and Coastal Security
                      Performance Measure – Percentage of reduction of all maritime security risk
                                         subject to Coast Guard influence
                              FY     FY      FY      FY      FY      FY      FY      FY       FY
                             2001 2002 2003 2004            2005    2006 2007 2008 2009

                      Target      N/A    N/A     N/A       N/A     Est.     14%     15%     15%      21%


                     Actual       N/A    N/A     N/A       N/A    3.40%     17%     15%     20%      31%

                                                                             √       √         √       √
                      Result                                       N/A      Met     Met       Met     Met



                     The data that comprises this measure comes from an annual
                     quantitative self-assessment of the Coast Guard’s activities, such
                     as maritime domain awareness, security regimes, and response
                     activities with regard to risk reduction. This performance measure
                     gauges the reduction in risk from an analytically determined
                     baseline level of risk. The FY 2009 results for percentage of
                     reduction in the maritime terrorism risk over which the Coast
                     Guard has influence were better than in FY 2008, partly due to
                     improvements made to the model and data collection process.

                     According to the Coast Guard, this improved performance is
                     attributable to expanded maritime domain awareness capacity in
                     the Automatic Information System, Long Range Identification and
                     Tracking Systems, and Rescue 21. This performance is better than
                     the FY 2010 and FY 2011 target of greater than 19%, for both
                     years.

                                                Ports, Waterways, and Coastal Security
                               Performance Measure –Percentage of reduction of maritime security risk
                                 resulting from Coast Guard efforts to prevent a terrorist entering the
                                                   United States via maritime means
                                      FY       FY     FY       FY      FY      FY      FY       FY       FY
                                     2001     2002   2003     2004    2005    2006    2007     2008     2009

                         Target      N/A       N/A     N/A       N/A      N/A     N/A     N/A       21%     21%



                         Actual      N/A       N/A     N/A       N/A      N/A     N/A     N/A       29%     42%


                                                                                                     √       √
                         Result                                                           X         Met     Met




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                Page 24

Appendix D
Homeland Security Missions

                     The data that comprises this measure comes from an annual
                     quantitative self-assessment of the Coast Guard’s activities, such
                     as maritime domain awareness, security regimes, and response
                     activities that reduce the risk associated from a terrorist entering
                     the United States via the maritime domain. This performance
                     measure gauges the Coast Guard’s estimated reduction in risk from
                     an analytically determined baseline level of risk. The FY 2009
                     results for percent risk reduction of a terrorist entering the United
                     States via maritime means were better than in FY 2008. According
                     to the Coast Guard, this improved performance is attributable to
                     expanded Maritime Domain Awareness capacity in the Automatic
                     Information System, Long Range Identification and Tracking
                     Systems, and Rescue 21. This performance is better than the
                     FY 2010 and FY 2011 targets of 29% and 27.9%, respectively.

                                          Ports, Waterways, and Coastal Security
                           Performance Measure – Number of Transportation Workers Identification
                                              Credential (TWIC) spot checks
                                  FY    FY      FY     FY     FY      FY       FY    FY         FY
                                 2001  2002    2003 2004 2005 2006 2007             2008       2009

                        Target
                                  N/A    N/A     N/A     N/A     N/A    N/A     N/A    30,000     94,500

                        Actual
                                  N/A    N/A     N/A     N/A     N/A    N/A     N/A          0    39,150
                                                                                             X      X
                        Result                                                              Not    Not
                                                                                            Met    Met


                     This performance measure counts the number of Transportation
                     Workers Identification Credential spot checks made during the
                     year. For FY 2009, the data reflects less than a full year of spot
                     checks because of an extension in the national compliance date to
                     April 15, 2009. This measure is being retired in FY 2010 and a
                     new measure has been developed to better capture the program’s
                     outcomes and activities. The new measure will capture the Annual
                     Transportation Worker Identification Credential compliance rate.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                            Page 25

Appendix D
Homeland Security Missions



                                       Ports, Waterways, and Coastal Security
                         Performance Measure – Risk reduction due to consequence management
                                FY    FY      FY      FY     FY       FY     FY     FY    FY
                               2001 2002 2003 2004 2005 2006 2007 2008 2009

                      Target    N/A    N/A     N/A       N/A     N/A       N/A       N/A       6%      6%


                      Actual    N/A    N/A     N/A       N/A     N/A       N/A       N/A       5%      9%

                                                                                     X          X
                                                                                               Not      √
                      Result                                                         not       Met     Met
                                                                                     met


                     According to the Coast Guard, the data that comprises this measure
                     comes from an annual quantitative self-assessment of the Coast
                     Guard’s activities, such as maritime domain awareness, security
                     regimes, and recovery operations, with regard to risk reduction.
                     The performance measure gauges the Coast Guard’s estimated
                     reduction in risk from an analytically determined baseline level of
                     risk. The FY 2009 results for risk reduction due to consequence
                     management were better than in FY 2008. According to the Coast
                     Guard, this improved performance is attributable to expanded
                     maritime domain awareness capacity in the Automatic Information
                     System, Long Range Identification and Tracking Systems, and
                     Rescue 21. The Coast Guard also attributes this improvement
                     partly to improvements made to the model and data collection
                     process. This performance is better than FY 2010 and FY 2011
                     risk reduction targets of 4% and greater than 3%, respectively.

                                    Ports, Waterways, and Coastal Security
                     Performance Measure – High-capacity passenger vessel required escort rate
                              FY    FY     FY     FY      FY     FY      FY      FY       FY
                             2001 2002 2003 2004 2005 2006 2007 2008                    2009

                     Target    N/A    N/A    N/A       N/A     N/A   N/A     N/A      100%      100%


                     Actual    N/A    N/A    N/A       N/A     N/A   N/A     N/A         58%     53%

                                                                                 X        X       X
                                                                                         Not     Not
                     Result                                                  not         Met     Met
                                                                             met


                     According to the Coast Guard, the 100% target reflects the optimal
                     level of Coast Guard performance to reduce risk with existing


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009)

                                             Page 26
Appendix D
Homeland Security Missions

                     resources. The Coast Guard utilizes risk informed decision making
                     to prioritize a suite of Ports, Waterways, and Coastal Security
                     activities on a daily basis. This is a contributing factor to the
                     performance results, as certain activities were given higher priority
                     over high-capacity passenger vessel escorts during FY 2009 based
                     on risk assessments and other operational demands placed on
                     Coast Guard multi-mission assets.

                     Drug Interdiction

                     The Coast Guard’s Drug Interdiction mission is key to combating
                     the flow of illegal drugs into the United States. The Coast Guard is
                     the lead federal agency for maritime drug interdiction and shares
                     responsibility for air interdiction with U.S. Customs and Border
                     Protection.

                     Resource Hours. As shown in the chart below, FY 2009 resource
                     hours for the Drug Interdiction mission increased by 6.2% from
                     FY 2008, but are 34% below baseline levels.


                                                    Illegal Drug Interdiction Resource Hours

                                          140,000
                                          120,000
                         Resource Hours




                                          100,000
                                           80,000
                                           60,000
                                           40,000
                                           20,000
                                               0
                                                     Baseline


                                                                 2001


                                                                           2002


                                                                                  2003


                                                                                          2004


                                                                                                 2005


                                                                                                        2006


                                                                                                               2007


                                                                                                                      2008


                                                                                                                             2009


                                                                                         Fiscal Year


                     Performance Measures and Results. There was one new
                     performance measure related to Drug Interdiction for FY 2009, and
                     it was not met.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                Page 27

Appendix D
Homeland Security Missions


                                                  Drug Interdiction
                      Performance Measure – Removal rate for cocaine from noncommercial vessels
                                             in a maritime transit zone
                              FY    FY      FY      FY      FY       FY    FY    FY        FY
                             2001 2002 2003 2004 2005 2006 2007 2008                      2009

                      Target                                                                15.7%


                      Actual                                                                15.0%

                                                                                             X
                                                                                            Not
                      Result
                                                                                            Met


                     According to the Coast Guard, to improve its data, in 2009 it
                     transitioned from the Interagency Assessment of Cocaine
                     Movement to the Consolidated Counterdrug Database as the best
                     source of cocaine movement estimates. The Consolidated
                     Counterdrug Database uses quarterly, event-based estimates rather
                     than annual production and consumption-based estimates used by
                     the Interagency Assessment of Cocaine Movement. According to
                     the Coast Guard, the deviation from the target was minor and there
                     was no effect on overall program performance. The Coast Guard
                     has several initiatives under way to increase interdiction capability
                     and capacity.

                     According to the Coast Guard, the second National Security Cutter
                     (USCGC WAESCHE) and increased deployed days of Airborne
                     Use of Force-capable helicopters will provide more capacity to
                     help counter non-commercial maritime conveyances in FY 2010.
                     The Coast Guard will also increase the size of the Law
                     Enforcement Detachment program, which was responsible for 54%
                     of the cocaine removed by the Coast Guard in FY 2009. Growing
                     domestic partnerships and expanding bilateral agreements and
                     international training programs are critical force-multipliers to
                     counter the transnational drug threat. The Coast Guard will
                     continue its international engagement through development and
                     sustainment of these agreements, as well as the deployment of
                     mobile training teams to support Theater Security Cooperation
                     initiatives.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                            Page 28

Appendix D
Homeland Security Missions

                           Such engagements strengthen ties with source and transit zone
                           partner nations5, increases their maritime law enforcement
                           competency and capability, reduces the destabilizing effects of
                           illicit drug smuggling, and enhances the movement of legitimate
                           commerce within their territorial seas. According to the Coast
                           Guard, this engagement includes the support of coordinated efforts
                           to combat drug smuggling through joint and combined planning.

                           Undocumented Migrant Interdiction

                           The Undocumented Migrant Interdiction mission responsibilities
                           consist of enforcing immigration laws at sea. To fulfill its
                           responsibilities, the Coast Guard conducts patrols and coordinates
                           with other federal agencies and foreign countries to interdict
                           undocumented migrants at sea, denying them entry via maritime
                           routes to the United States, its territories, and its possessions.

                           Resource Hours. Resource hours increased slightly by 1.6% from
                           FY 2008 to FY 2009, and remained more than 150% above
                           baseline levels.


                                                   Undocumented Migrant Interdiction Resource
                                                                    Hours

                                                120,000
                               Resource Hours




                                                100,000
                                                 80,000
                                                 60,000
                                                 40,000
                                                 20,000
                                                      0
                                                          Baseline

                                                                      2001

                                                                             2002

                                                                                    2003

                                                                                            2004

                                                                                                   2005

                                                                                                          2006

                                                                                                                 2007

                                                                                                                        2008

                                                                                                                               2009




                                                                                           Fiscal Year



                           Performance Measures and Results. There was one
                           performance measure related to Migrant Interdiction for FY 2009,
                           and it was met.


5
  Transit zone partners are those partner nations located within the drug transit zone that cooperate and
work closely with U.S. interdiction forces to deter and interdict drugs smuggled through the transit zone
towards the U.S. These countries include those located within the transit zone corridors designated as
Mexico–Central America and the Caribbean.


              Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                     Page 29

Appendix D
Homeland Security Missions


                                                    Migrant Interdiction
                        Performance Measure – Percentage of undocumented migrants who attempt to
                              enter the United States via maritime routes “that are interdicted”
                                FY      FY     FY      FY      FY     FY       FY         FY      FY
                               2001 2002 2003 2004 2005 2006                  2007       2008    2009

                        Target                                               N/A       65%     69.9%


                        Actual                                              65.20%   62.70%    84.4%

                                                                                        X
                                                                                       Not       √
                        Result                                                         Met      Met



                     According to the Coast Guard, in FY 2009 the percentage of
                     undocumented migrants who attempted to enter the United States
                     using maritime means that were interdicted was at a record high
                     and resulted in an 84.4% interdiction rate. Based on historical
                     results, including FY 2009, the program’s interdiction rate has
                     averaged approximately 70%. The program set a target for
                     FY 2010 of 74%.

                     Defense Readiness

                     The Defense Readiness mission provides essential capabilities to
                     support national security and military strategies. Resource hours
                     depict the execution of these defense missions, while the
                     performance measures and results measure the Coast Guard’s
                     readiness to perform the mission.

                     Resource Hours. As shown in the chart below, resource hours for
                     Defense Readiness reached their highest level in FY 2009 in
                     comparison with the baseline. Resource hours increased by 31%
                     from FY 2008 to FY 2009.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                            Page 30

Appendix D
Homeland Security Missions

                                                               Defense Readiness Resource Hours


                                        60,000
                                        50,000




                       Resource Hours
                                        40,000
                                        30,000
                                        20,000
                                        10,000
                                            0




                                                    Baseline

                                                                2001


                                                                       2002


                                                                              2003

                                                                                      2004


                                                                                               2005

                                                                                                        2006


                                                                                                                2007

                                                                                                                       2008


                                                                                                                               2009
                                                                                     Fiscal Year




                     Performance Measures and Results. There were three
                     performance measures related to Defense Readiness for FY 2009,
                     and none of them were met.

                                                                    Defense Readiness
                                                   Performance Measure – Defense readiness of patrol boats
                                                  FY     FY     FY     FY      FY      FY       FY        FY                           FY
                                                 2001 2002 2003 2004 2005 2006                 2007      2008                         2009

                            Target                             N/A     N/A     N/A       N/A          N/A      N/A      100%      100%


                            Actual                             N/A     N/A     N/A       N/A          N/A      100%      95%          94%

                                                                                                                          X            X
                                                                                                                         Not          Not
                             Result                                                                                      Met          Met


                     According to the Coast Guard, it did not meet its target primarily
                     because of asset availability of the aging patrol boat inventory.
                     Patrol boat readiness is being addressed in part by Coast Guard
                     acquisition programs to procure assets, such as the National
                     Security Cutter, that will yield increased capability for Defense
                     Readiness mission performance. This measure was retired in
                     FY 2009 and will be replaced with one new performance measure,
                     which is outlined at the end of this section.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                  Page 31

Appendix D
Homeland Security Missions


                                                     Defense Readiness
                                 Performance Measure – Defense readiness of Port Security Units
                                   FY    FY     FY     FY      FY     FY      FY       FY        FY
                                  2001 2002 2003 2004 2005 2006 2007                  2008      2009

                        Target           N/A      N/A     N/A    N/A     N/A     N/A     100%     100%


                        Actual           N/A      N/A     N/A    N/A     N/A     N/A   24.45%     19.8%

                                                                                           X       X
                                                                                          Not     Not
                        Result
                                                                                          Met     Met



                     According to the Coast Guard, the low performance results are
                     primarily attributable to personnel and training shortfalls between
                     deployments for these reserve forces. Resolution of Port Security
                     Unit personnel shortfalls along with unit training requirements
                     should improve unit readiness. The Port Security Units have been
                     placed under the command of the Deployable Operations Group,
                     which should allow more focus on these reserve units to improve
                     performance results. This measure was retired in 2009 and will be
                     replaced with one new performance measure, which is outlined at
                     the end of this section.

                                                    Defense Readiness
                        Performance Measure – Percentage of time that Coast Guard assets included in
                            the Combatant Commander Operational Plans are ready at a Status of
                                Resources and Training System (SORTS) rating of 2 or better
                                 FY     FY      FY      FY      FY      FY     FY       FY      FY
                                2001   2002    2003    2004    2005    2006   2007     2008    2009

                        Target    100%   100%     100%    100%    100%    100%     100%    100%    100%


                        Actual    67%     70%      78%     76%    69%      62%     51%      56%    44%

                                   X       X        X       X      X        X       X        X      X
                                  Not     Not      Not     Not    Not      Not     Not      Not    Not
                        Result
                                  Met     Met      Met     Met    Met      Met     Met      Met    Met



                     According to the Coast Guard, Port Security Unit readiness
                     remained below standards, largely because of personnel shortfalls
                     and the demands of unit training requirements. Asset deficiencies
                     are being addressed in part by Coast Guard acquisition programs,
                     such as the National Security Cutter acquisition, which will yield
                     essential system-wide capability improvements for maritime



         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                               Page 32

Appendix D
Homeland Security Missions

                           homeland security priorities and sustain operational performance.
                           This measure was retired in FY 2009.

                           A new performance measure, “Defense Readiness Assessment of
                           all Coast Guard high endurance cutters, patrol boats, and port
                           security units,” will be instated in FY 2010 and will replace the
                           three performance measures used in FY 2009. This measure
                           gauges whether these Coast Guard assets meet the minimum
                           standards established in the Status of Resources and Training
                           System, to assess deployment readiness for Department of Defense
                           operations.

                           Other Law Enforcement

                           Other Law Enforcement is responsible for preventing illegal foreign
                           fishing vessel encroachment in the United States Exclusive
                           Economic Zone.6 The Coast Guard focuses on three high-threat
                           areas for illegal foreign incursions: the United States–Mexican
                           border in the Gulf of Mexico, the United States–Russian Maritime
                           Boundary Line in the Bering Sea, and the eight noncontiguous
                           Exclusive Economic Zones in the Western/Central Pacific.

                           Resource Hours. As shown in the chart below, the resource hours
                           for the Other Law Enforcement mission were below baseline in
                           every year before FY 2007. After increasing in FY 2007, resource
                           hours decreased 19.2% in FY 2009 to below the baseline level.




6
 An Exclusive Economic Zone generally extends to a distance of 200 nautical miles (370 km) out from its
coast. Within the Exclusive Economic Zone, the coastal state has sovereign rights for the purpose of
exploring, exploiting, conserving, and managing natural resources, both living and nonliving, of the seabed,
subsoil, and the subjacent waters; and with regard to other activities, for the economic exploitation and
exploration of the zone. The U.S. has the largest Exclusive Economic Zone in the world, encompassing
more than 2.25 million square miles and 90,000 miles of coast line.


              Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                  Page 33

Appendix D
Homeland Security Missions

                                                Other Law Enforcement Resource Hours

                                           10,000




                          Resource Hours
                                            8,000
                                            6,000
                                            4,000
                                            2,000
                                               0




                                                     Baseline

                                                                2001

                                                                         2002

                                                                                 2003

                                                                                         2004

                                                                                                2005

                                                                                                         2006

                                                                                                                  2007

                                                                                                                         2008

                                                                                                                                2009
                                                                                        Fiscal Year



                     Performance Measures and Results. There was one
                     performance measure related to Other Law Enforcement for
                     FY 2009 and it was met.

                                                            Other Law Enforcement
                                               Performance Measure – Number of incursions into the
                                                         U.S. Exclusive Economic Zone
                                               FY     FY    FY      FY      FY     FY      FY      FY                             FY
                                              2001 2002 2003 2004 2005 2006 2007 2008                                            2009

                       Target                 <202      <202           <202     <202     <200      <199         <199     <195    <195


                       Actual                 212         250          152      247       171          164      119       81      112

                                               X           X                     X
                                              Not         Not           √       Not        √        √            √        √        √
                       Result                 Met         Met          Met      Met       Met      Met          Met      Met      Met



                     Based on historical data, anticipated increased success in detecting
                     United States Exclusive Economic Zone incursions along the
                     United States–Mexico maritime border in the Gulf of Mexico, and
                     an anticipated increase in illegal encroachments into the Exclusive
                     Economic Zone, the program plans to maintain its FY 2010 target
                     of fewer than 190 incursions as an aggressive but achievable
                     target.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                                                Page 34

Appendix E
Major Contributors to This Report

                      Brooke Bebow, Director
                      Lorinda Couch, Project Lead
                      Nga Dang, Program Analyst
                      James Bess, Referencer




          Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                             Page 35

Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      USCG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




          Annual Review of the United States Coast Guard’s Mission Performance (FY 2009) 


                                             Page 36

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
